              LOST AND STOLEN
            SECURITIES PROGRAM

                    EXECUTIVE SUMMARY
Section 17(f)(1) of the Securities and Exchange Act of 1934 (Exchange Act), 17 U.S.C.
§ 78q(f)(1), which was added in 1975, requires the Securities and Exchange
Commission to administer a Lost and Stolen Securities Program (LSSP or Program).
The Program’s objective is to curtail trafficking in lost, stolen, missing and
counterfeit securities certificates. To achieve the Program’s objective, the
Commission awarded a contract to the Securities Information Center (SIC) to
operate a computerized database of lost, stolen, missing and counterfeit certificates.
Under the Program, most financial institutions, including securities firms, banks
and transfer agents, are required to report lost, stolen, missing or counterfeit
securities certificates to the LSSP database. These financial institutions must also
inquire about any securities certificates valued at more than $10,000 that comes into
their possession or keeping, to determine whether the certificate has been reported
as lost, stolen, missing or counterfeit. Financial institutions may, on a voluntary
basis, report or inquire about other securities certificates, such as cancelled
securities certificates.
Beginning in 2000, Program members began voluntarily adding reports of cancelled
securities certificates to the database as a result of an industry-wide initiative to
make the database more complete and to assist Program participants in determining
whether securities certificates that come into their possession are valid. The
addition of cancelled certificates to the database has benefited the Program but has
also resulted in significant increases in Program costs.
We found that the Division of Market Regulation (MR), which is responsible for
overseeing the Program, and members of the LSSP Advisory Board (an informal
discussion group) are generally satisfied with the operation of the Program. We also
found that SIC, the contractor since the Program’s inception in 1977, generally
appears to be in compliance with the most recent contract (awarded in 2003).
We are making several recommendations for improvements in the Program. We are
recommending that MR take appropriate steps to ensure banks’ compliance with the
Program’s registration requirements. MR should also suggest to SIC that it expand
the membership of the LSSP Advisory Board to include bank regulatory agencies
and increase the frequency of LSSP Advisory Board meetings. We are also
recommending that MR request additional Program information from SIC, review
the current allocation of Program fees among participants (which has not changed
since 1977) to determine if it should be revised, and ensure that fees charged for
                                                                                   2


making voluntary reports to the LSSP database are reasonable and consistent with
the Commission’s contract with SIC.




LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                     MARCH 31, 2004
                                                                                         3




In addition, we are recommending that the Offices of Information Technology (OIT),
Filing and Information Services (OFIS), and Financial Management (OFM)
determine the applicability of Federal Information Technology (IT), records
management, and financial management laws and regulations to the LSSP.



                         OBJECTIVES AND SCOPE
Our objectives were to evaluate the effectiveness of the Commission’s LSSP and
SIC’s compliance with its contract with the Commission. During the audit, we
interviewed Commission and SIC staff, staff from the Federal Reserve Board (FRB)1,
the Federal Deposit Insurance Corporation (FDIC), the National Association of
Securities Dealers (NASD), the Securities Industry Association (SIA), the Federal
Bureau of Investigations (FBI), clearing corporations and Program participants,
such as banks, broker-dealers and transfer agents. We also reviewed relevant
documentation, including Commission contract files, SIC annual statistics reports,
and other documents provided by MR and the contractor. We also met with the
contractor on site.
The audit was performed from September 2003 to February 2004 in accordance with
generally accepted government auditing standards, except that we did not evaluate
the validity and reliability of the data in SIC’s LSSP database.



                                      BACKGROUND

Description of the Program
In 1975, Congress enacted Section 17(f)(1) of the Exchange Act, 15 U.S.C. 78q(f)(1),
requiring the Commission to operate the LSSP. The purpose of the Program was to
curtail trafficking in lost, stolen, missing, and counterfeit securities certificates.
Rule 17f-1 under the Exchange Act, 17 C.F.R. 240.17f-1, first adopted in 1976,
governs LSSP operations. The Program consists primarily of a database of
securities that have been reported as lost, stolen, missing, or counterfeit.
The LSSP has two major components: “reports” and “inquiries.” Most financial
institutions (including exchanges, banks, brokers, clearing agencies and transfer
agents) are required to report any certificates that they discover to be lost, stolen,
missing or counterfeit.2 These financial institutions must also inquire about any
securities certificate valued at more than $10,000 that come into their possession or
keeping to determine whether the certificate has been reported as lost, stolen,


1
    Abbreviations also listed in Appendix.
2
    See Rule 17f-1(c).


LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                          MARCH 31, 2004
                                                                                        4


missing or counterfeit.3 In addition to the mandatory reports and inquiries,
financial institutions may voluntarily report or inquire about any other securities
certificates, such as cancelled securities certificates.4
The Commission has chosen to operate the LSSP through a contractor, the
Securities Information Center (SIC). SIC, a component of the Thomson Corporation,
has administered the Program since the Program’s inception in 1977. The contract
is re-competed every five years and was last competed in May 2003. SIC receives all
reports and inquiries, responds to inquiries, and maintains the Program’s database.
The contract is cost-free to the Commission. SIC earns annual revenues of
approximately $6 million from operating the LSSP by assessing fees to the
Program’s participants. In 2002, Program participants paid costs of approximately
$5.5 million, compared to industry savings of $18 million, as estimated by SIC.5
As of December 31, 2003, the Program had 25,714 participants, consisting of 13,855
banks, 10,927 securities organizations and 932 non-bank transfer agents. During
2003, 1,074,251 reports of lost, stolen, missing or counterfeit certificates were added
to the database, and inquiries were made on 4,710,852 certificates. If an inquiry
about a certificate results in a match or “hit,” the inquiring financial institution is
alerted that the certificate has been reported as lost, stolen, missing, or counterfeit
and is not eligible for transfer. In 2003, there were “hits” on 172,200 certificates
that had been reported as lost, stolen, missing or counterfeit. An additional 292,274
“hits” occurred on certificates that had been reported as cancelled.

Program Oversight
MR oversees SIC’s performance of the contract. MR receives and reviews contract
deliverables and consults with SIC.
MR also participates on a LSSP Advisory Board, an informal discussion group that
meets periodically to discuss industry trends, challenges and Program
enhancements. Other participants on the Board include representatives from the
SIC, brokers, banks, transfer agents, clearing corporations, SIA and FBI. The
Board has no official standing and was organized in 1995, following a suggestion by
MR. SIC calls and hosts the Board’s meetings.

Trends
The number of inquiries to the LSSP database has declined significantly in recent
years. The number of inquires to the database, on a yearly basis, between 1999 and
2003, was 8 million, 7.3 million, 6.2 million, 5.2 million and 4.7 million, respectively.
This decline is due to the reduced movement of physical certificates and increased
reliance on electronic records. As dependence on physical certificates continues to
decline, use of the Program to identify lost and stolen certificates will likely decrease
further.
3
    See Rule 17f-1(d).
4
    See Rule 17f-1(e).
5
    We did not verify SIC’s estimate of industry savings.


LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                           MARCH 31, 2004
                                                                                                            5


Beginning in 2000, as part of an industry-wide initiative by the SIA, Program
members began voluntarily adding reports of cancelled, stopped and escheated
securities certificates to the LSSP database. The purpose of the initiative was to
make the database more complete and to assist Program participants in determining
whether securities certificates that come into their possession are valid. The vast
majority of the voluntary reports in the database are reports of cancelled securities.6
The voluntary reporting of cancelled securities appears to be consistent with the
goals of the LSSP, as there have been a number of cases where cancelled securities
have re-entered the market place and defrauded banks and brokers, as well as
individuals.7
In recent years, the number of voluntary reports to the LSSP database has far
exceeded the number of mandatory reports.8 As of December 31, 2003, voluntary
reports comprised 79% of total reports in the LSSP database, while mandatory
reports comprised 21% of total reports in the LSSP database. Tables 1 and 2 in the
Appendix reflect the composition of the database by year (1998-2003) and the type of
reports added during each of those years.
Since the addition of voluntary reports to the LSSP database, the total number of
hits resulting from inquiries to the database has increased significantly. (See Table
6 in the Appendix.) The number of “hits” as a percentage of certificates checked
against the database also increased from approximately 4% in 2000 to nearly 10% in
2003. The addition of voluntary reports has also significantly contributed to total
LSSP annual costs rising from approximately $3 million in 1999 to an estimated $8
million in 2003. (See Table 7 in the Appendix.)



                                    AUDIT RESULTS
The Division of Market Regulation, which is responsible for overseeing the Program,
and members of the LSSP Advisory Board that we contacted, are generally satisfied
with the operation of the Program. SIC, the contractor since the Program’s
inception in 1977, generally appears to be in compliance with the most recent
contract (awarded in 2003). We are making several suggestions for improvement in
the Program.




6
    The Commission has amended Rule 17f-1 to clarify that cancelled certificates that were lost, stolen,
    missing or counterfeit, must be reported to the LSSP. See Securities Exchange Act Release No. 34-
    48931 (December 23, 2003). Thus, the voluntary reporting of cancelled certificates applies only to
    cancelled certificates that have not been discovered to be lost, stolen, missing or counterfeit.
7
    See Securities Exchange Act Release No. 34-48931 (December 23, 2003).
8
    In 2000, some transfer agents began to add their entire inventories of cancelled certificates to the LSSP
    database. Once this effort is complete (which SIC estimates will occur at the end of 2005), the number of
    voluntary reports added to the database should decrease significantly. At that time, transfer agents will
    only be making voluntary reports of cancelled securities that presently come into their possession.


LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                                             MARCH 31, 2004
                                                                                                                    6



LSSP OVERSIGHT

Non-Registration
Unlike banks, all broker-dealers and transfer agents must register with the LSSP as
a condition of registering with the Commission. This helps ensure that all broker-
dealers and transfer agents are registered with the LSSP.
However, staff at the Commission, SIC and the LSSP Advisory Board agreed that
not all banks required to register with the LSSP have actually registered with the
LSSP.9 Banks under the jurisdiction of the FRB and banks whose deposits are
insured by the FDIC are required to register with the LSSP, absent any
exemptions.10 Some banks, particularly small FDIC banks, may incorrectly believe
they are exempt from registration, while others may be unaware of the Program’s
requirements.
The Commission has authority to enforce §17(f)(1) and Rule 17f-1 against all entities
that are required to register with LSSP under the rule, including banks. MR has
communicated with the FRB and FDIC regarding the operation of the Program.

           Recommendation A
           MR should encourage the FRB and FDIC to ensure that their applicable
           member banks register with and utilize the LSSP, as required by law and
           regulation.

LSSP Advisory Board
The bank regulatory agencies are currently not represented on the LSSP Advisory
Board. Such representation could assist MR in encouraging increased bank
participation in the Program.
In addition, the Commission’s procurement staff in the Office of Human Resources
and Administrative Services (OHRAS) and OIT staff do not attend LSSP Advisory
Board meetings and are not consulted concerning those meetings. The procurement
staff have ultimate responsibility for the contract, while OIT staff could provide
technical expertise on technical issues being discussed by the Board.

           Recommendation B
           MR should ask SIC to invite representatives from the bank regulatory
           agencies to participate in Board meetings. MR should also inform OHRAS
           and OIT of issues affecting the contract and any technical issues covered in
           the Board meetings.

9
     We were unable to ascertain an approximate number or percentage of banks not registered with the
     Program.
10
     For example, reporting institutions that have not handled securities certificates within the last six months
     are exempt from registering with the Program. See Rule 17f-1(b).


LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                                                  MARCH 31, 2004
                                                                                       7


The last LSSP Advisory Board meeting was more than two years ago (February
2002). Some Advisory Board members told us that semi-annual or annual meetings
would be beneficial. More frequent meetings would also provide MR with additional
opportunities to coordinate with the bank regulatory agencies (provided they
attend).

       Recommendation C
       MR should suggest that SIC hold LSSP Advisory Board meetings on a semi-
       annual or annual basis.


CONTRACT OVERSIGHT
Reporting
SIC currently reports certain revenues as aggregate figures in its annual statistics
report. This report could be more useful to MR if SIC also provided separate figures
showing revenues received from each of the following sources:
   •   Processing inquiries;
   •   Adding reports of lost, stolen, missing, counterfeit, cancelled, stopped and
       escheated securities certificates (separate figure for each);
   •   Participant registration and usage fees (separate figure for each);
   •   Performing mandatory operations;
   •   Performing voluntary operations; and
   •   Any other significant revenue sources.
This report could also be more useful to MR if it listed the number of lost, stolen,
missing, counterfeit, cancelled, stopped, and escheated reports that SIC adds to the
database each year (separate number for each) and the dollar value of the
certificates associated with each type of report that SIC adds to the database.

       Recommendation D
       MR should determine what additional annual report information would be
       useful and request this information from SIC. In making this determination,
       MR may wish to consult with the LSSP participants, bank regulators,
       OHRAS procurement staff, and OIT staff.
       Information Technology
The LSSP contract requires certain IT-related contract deliverables (i.e., risk
analysis reports, system change reports and operational environment change
reports) to be provided to both MR and OIT. However, only MR currently receives
these documents. The MR staff that receive these documents do not have IT
backgrounds. Having IT staff review the documents would help ensure that they
comply with applicable security standards and IT best practice guidance.




LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                          MARCH 31, 2004
                                                                                        8


       Recommendation E
       The Commission’s Chief Information Officer, in consultation with MR, should
       designate OIT staff to review the IT-related contract deliverables (i.e., risk
       analysis reports, system change reports and operational environment change
       reports) received from SIC.


FEES AND BILLING PRACTICES

Equity of Fee Allocations Among Direct Inquirers
Participants in the LSSP must register as either direct or indirect inquirers and may
change their status at any time. Direct inquirers contact SIC directly to ascertain
the status of a security. Indirect users make their inquiries through a direct
inquirer for a fee (charged by the direct inquirer at its discretion). As of December
2003, the Program had 1,430 direct inquirers and 24,284 indirect inquirers.
Under the contract, direct users pay all Program costs. These include nominal
registration and maintenance fees that are assessed for all direct and indirect
inquirers. Additionally, on a semi-annual basis, the aggregate amount of all fees
charged for adding reports and making inquiries (usage fees) are divided among the
direct users based on their size and type of institution. This billing allocation was
designed so that larger institutions (presumably larger users) paid higher fees.
The billing allocation has not changed since the Program’s inception in 1977. As a
result, institutions that are not considered large by current market standards may
still be charged the highest level of fees. For example, a broker-dealer with $25.1
million in revenue (considered “small” by current market standards) pays the same
fee as a broker-dealer with $500 million in revenue (considered “large” by current
market standards). For this reason, the current billing methodology appears to be
inequitable. Some direct inquirers believe that the fees they pay unfairly subsidize
other larger direct inquirers.

       Recommendation F
       MR, in consultation with SIC and other interested parties (e.g., bank
       regulatory agencies, NASD, the Securities Transfer Association and the
       Commission’s Office of Economic Analysis), should review the Program’s
       current allocation of fees to determine whether it should be revised to make it
       more equitable among the Program’s direct inquirers, and take appropriate
       action.

Reasonableness of Assessing Voluntary Report Fees Among all
Direct Inquirers
SIC charges all of the Program’s direct inquirers for the cost of adding voluntary (as
well as mandatory) reports to the database. The fees charged for adding voluntary
reports are the same as the fees charged for adding mandatory reports. While fees
charged for adding mandatory reports are provided for in the Commission’s contract

LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                         MARCH 31, 2004
                                                                                        9


with SIC, we believe that the contract does not expressly provide for the assessment
of fees for voluntary reports.
SIC and MR believe that if SIC billed only the participants that added the voluntary
reports to the LSSP database, these participants would not add the reports to the
database. The availability of reports of cancelled certificates in the database
benefits Program participants because it assists them in determining if physical
securities that come into their possession are invalid because they have been
cancelled.
The addition of voluntary reports has significantly contributed to total LSSP annual
costs rising from approximately $3 million in 1999 to an estimated $8 million in
2003. (See Table 7 in the Appendix.) Costs are expected to remain elevated through
2005, when SIC estimates the addition of inventories of cancelled certificates to the
database will be complete.

           Recommendation G
           MR, in consultation with OHRAS and OGC, should review SIC’s practice of
           billing all direct inquirers for adding voluntary reports to the system to
           determine if it is reasonable. MR should then determine whether the billing
           practice and/or the contract should be revised and the appropriate disposition
           of fees paid to date for adding voluntary reports.


COMMISSION COMPLIANCE WITH POLICIES AND LAWS

Information Technology
           Investment Portfolio
The Commission’s IT Investment Portfolio is defined as “all of its IT assets,
resources, and investments owned or planned by an organization in order to achieve
its strategic goals, objectives, and mission.”11
The Commission’s LSSP is not included in its IT Investment Portfolio. Including it
in the Portfolio would make the Portfolio more complete and ensure that the
Program is accounted for among the Commission’s various IT activities.
           Investment Decision-Making
The Commission’s Information Officers Council (IOC) and Capital Planning
Committee (CPC) review IT investment proposals of $25,000 or more. The IOC
consists of senior managers from Commission divisions and major offices. The CPC
is comprised of division directors. The IOC makes recommendations to the CPC on
which IT projects to fund; the CPC is the final decision maker.
The IOC and CPC reviews are intended to ensure that Commission IT projects meet
Federal IT requirements and are consistent with agency business processes and
objectives. The IOC and CPC did not review the LSSP upon contract renewal in


11
     Commission draft SECR 24-1.1, version 1, June 2002, page 5.

LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                            MARCH 31, 2004
                                                                                                              10


May 2003. MR believed this review was unnecessary because the LSSP contract is
cost-free to the Commission.
The LSSP contract cost Program users $5.5 million in 2002. Additionally, the
Commission makes significant financial decisions upon contract renewal, owns the
data that the contractor collects, approves user fees and negotiates contract
requirements. Moreover, the contract is an IT-based contract because it involves
maintaining a database, having backup and recovery procedures, and ensuring that
appropriate technology is utilized.
           Security
The Federal Information Securities Management Act (FISMA) enacted in December
2002, requires each Federal agency to develop, document, and implement an agency-
wide program to provide information security for the information and information
systems that support the operations and assets of the agency, including those
provided or managed by another agency, contractor, or other source. FISMA also
provides a framework for developing and maintaining minimum controls required to
protect Federal information and information systems. We believe that the LSSP
database may be subject to FISMA.
           Recommendation H
           OIT, in consultation with MR and OGC, should review the applicability of the
           IT Investment Portfolio, the IOC and CPC reviews, and FISMA to the LSSP
           and take appropriate action.

Records Management
According to OFIS, the Program’s data constitutes a Federal record. As a result,
OFIS should account for this data in its inventory of Commission records and
establish a retention period for the Program’s data.12
           Recommendation I
           OFIS, in consultation with MR and OGC, should review compliance with
           applicable Federal record-keeping requirements and take appropriate action.

Financial Management
Although the LSSP contract does not use appropriated Commission funds, the
Commission may be required to reflect the LSSP in its financial statements.
           Recommendation J
           OFM should review the LSSP and determine if it should be accounted for in
           the Commission’s financial statements, and take appropriate action.


12
     SIC, however, may choose to retain the Program data for a longer period of time than is required under
     Federal record-keeping laws.




LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                                             MARCH 31, 2004
                                                                         APPENDIX



                             ABBREVIATIONS

CPC                  Capital Planning Committee
FBI                  Federal Bureau of Investigations
FDIC                 Federal Deposit Insurance Corporation
FISMA                       Federal Information Security Management Act
FRB                  Federal Reserve Bank
IOC                  Information Officers Council
IT                   Information Technology
LSSP or Program      Lost and Stolen Securities Program
Mandatory Reports Refers to reports of lost, stolen, missing and counterfeit
                  securities certificates added to the LSSP Database
MR                   Division of Market Regulation
NASD                 National Association of Securities Dealers
OFIS                 Office of Filings and Information Services
OFM                  Office of Financial Management
OHRAS                Office of Human Resources and Administrative Services
OIT                  Office of Information Technology
SIA                  Securities Industry Association
SIC                  Securities Information Center
Voluntary Reports    Refers to reports added to the database, other than lost, stolen,
                     missing and counterfeit securities certificates (e.g., reports of
                     cancelled, stopped and escheated securities certificates)




LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                         MARCH 31, 2004
                                                                                      APPENDIX




                                                  TABLES

                                     Table 1 - Total Reports in Database

                    140,000,000
                    120,000,000
                    100,000,000
  # Reports




                     80,000,000                                             Voluntary Reports
                     60,000,000                                             Mandatory Reports
                     40,000,000
                     20,000,000
                             0
                                  1998   1999   2000   2001   2002   2003
                                                   Year




                              Table 2 - Reports Added to Database By Year

                    60,000,000
                    50,000,000
  # Reports Added




                    40,000,000
                                                                            Voluntary Reports
                    30,000,000
                                                                            Mandatory Reports
                    20,000,000
                    10,000,000
                             0
                                  1998   1999   2000   2001   2002   2003
                                                   Year




LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                                      MARCH 31, 2004
                                                                                          APPENDIX



                    Table 3 - Semi-Annual Usage Fee Per Broker-Dealer
                                   (July - December 2003)
                                                                                (49)
               $30,000
                                                                  (45)
               $25,000
   Usage Fee




               $20,000
               $15,000
               $10,000
                            (241)            (103)
                $5,000
                    $0
                          <$500,000        $500,000-       $5-$25 million   >$25 million
                                           $5 million

                                               Annual Revenue

Figures in parenthesis show the number of broker-dealers registered as direct inquirers.




                         Table 4 - Semi-Annual Usage Fee Per Bank
                                    (July - December 2003)

                                                                               (54)
               $30,000
               $25,000
   Usage Fee




               $20,000
                                                        (28)
               $15,000
               $10,000
                               (818)
                $5,000
                   $0
                           <$500 million      $500 million - $1 billion     >$1 billion
                                                     $ Deposits


Figures in parenthesis show the number of banks registered as direct inquirers.




LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                                         MARCH 31, 2004
                                                                                   APPENDIX



                   Table 5 - Semi-Annual Usage Fee Per Transfer Agent
                                  (July - December 2003)
                                                                     (42)
               $1,200
               $1,000
   Usage Fee




                $800
                                    (50)
                $600
                $400
                $200
                  $0
                                  <100,000                         100,000+
                                                # Accounts


Figures in parenthesis show the number of transfer agents registered as direct inquirers.




                                Table 6 - Total # Hits Over Time

               500,000

               400,000

               300,000
   # Hits




               200,000

               100,000

                    0
                         1998       1999      2000          2001     2002        2003
                                                     Year




LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                                   MARCH 31, 2004
                                                                  APPENDIX



                          Table 7 - Total LSSP Costs

      $9,000,000
      $8,000,000
      $7,000,000
      $6,000,000                                               Voluntary
      $5,000,000                                               Costs
  $




      $4,000,000
      $3,000,000                                               Mandatory
      $2,000,000                                               Costs
      $1,000,000
              $0
                   1998   1999   2000   2001   2002    2003
                                                        est.
                                                       costs
                                    Year




LOST AND STOLEN SECURITIES PROGRAM (AUDIT 377)                  MARCH 31, 2004
